                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General

                                                                    JUl 29 2011



The Honorable Edward Drusina, U.S. Commissioner
International Boundary and Water Commission
United States and Mexico, U.S. Section
4171 North Mesa Street, Suite C-lOO
El Paso, TX 79902-1441            U
           . .     D'
Dear COInmlg-gWH:(H:Fl:l-S+fla:       /


Enclosed for your review and action is a copy of the report Audit ofinternational Boundary and
Water Commission Construction Contract With Milestone Excavation, inc.. Using Funds
Provided by the American Recovery and Reinvestment Act (AUD/CG- 11 - 18). As the action
office for Recommendations 1 and 2, please provide your response to the report and information
on actions taken or planned for the two recommendations within 30 days of the date of this letter.
Actions taken or planned are subject to followup and reporting in accordance with the enclosed
compliance response information.

The Office ofInspector General (OIG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix B.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663 -0372 or Richard Astor, Director, Division of Contracts and Grants, at (703) 284­
2601 or by email at astorr@state.gov.

Sincerely,

/1)
 / 1
Harol~
Deputy Inspector General

Enclosures: As stated.

cc:           (b) (6)
              (b) (6)
                        (b) (6)
                        (b) (6)
               (b) (6)
                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                                  Audit of

                                        International Boundary and

                                  Water Commission Construction Contract 

                                      With Milestone Excavation, Inc.,

                                        Using Funds Provided by the

                                  American Recovery and Reinvestment Act


                                              Report Number AUD/CG-11-18, July 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General


                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission's (IBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant, Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton's report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

        OIG evaluated the nature, extent, and timing of Cotton's work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Cotton's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General
                                       UNCLASSIFIED



                                                 
                                                 




Audit of International Boundary and Water Commission Construction Contract With Milestone
Excavation, Inc., Using Funds Provided by the American Recovery and Reinvestment Act



Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) construction contract with Milestone
Excavation, Inc., using funds provided by the American Recovery and Reinvestment Act
(Recovery Act). We evaluated Milestone’s compliance with relevant Federal laws and
regulations, including those of the Recovery Act; adequacy of processes and systems in place to
collect information required to be reported by the Recovery Act; and accuracy and completeness
of required report submissions. This performance audit, performed under Contract No. S-AQM-
PD-04-D0035, was designed to meet objectives identified in the report section titled “Objective”
and further defined in Appendix A, “Scope and Methodology.”

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.

Cotton & Company LLP




Michael W. Gillespie, CPA, CFE
Partner

Alexandria, Virginia
July 2011


                                       UNCLASSIFIED

                                      UNCLASSIFIED





ACRONYMS


Department     Department of State
FAR            Federal Acquisition Regulation
FTE            full-time equivalent
IBWC           International Boundary and Water Commission
OIG            Office of Inspector General
Recovery Act   American Recovery and Reinvestment Act of 2009




                                      UNCLASSIFIED

                                    UNCLASSIFIED



                              TABLE OF CONTENTS

                                                                                Page
Executive Summary                                                                  1
Background                                                                         1
Objective                                                                          2
Results of Audit                                                                   2
  Finding A. Contractor Did Not Comply With All Contract Terms and Conditions      3

  Finding B. Required Subcontractor Certifications Were Not Obtained               3

  Finding C. Recovery Act Reporting Was Inaccurate and Incomplete                  4


List of Recommendations                                                            6

Appendices
A Scope and Methodology                                                            7

B International Boundary and Water Commission Response                             9





                                    UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct
performance audits of contractors that received funding provided by the American Recovery and
Reinvestment Act of 2009 (Recovery Act) from the International Boundary and Water
Commission (IBWC). The audit objective was to determine whether contractors that received
Recovery Act funds from IBWC complied with relevant Federal laws and regulations, including
those of the Recovery Act; had adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and submitted required reports that are accurate and
complete. One contractor selected for review was Milestone Excavation, Inc.

        Milestone was awarded two Recovery Act-funded contracts. Contract No. IBM10C0005
was awarded on December 29, 2009, to furnish all labor, materials, equipment, and incidentals
necessary to complete construction of the Upper Rio Grande Flood Control Project –
Rehabilitation Improvements for the Rio Grande Canalization Protective Levee System, Hatch
Levee System, from Hatch Siphon to Bignell Arroyo. The total contract award was
$5,499,625.75. This contract had three modifications, which increased the total contract value to
$5,642,817.26. Milestone invoiced and was paid $2,326,521.20 for work performed through
September 30, 2010.

       Contract No. IBM10C0006 was awarded on December 30, 2009, to furnish all labor,
materials, equipment, and incidentals necessary to complete construction of the Upper Rio
Grande Flood Control Project – Rehabilitation Improvements for Canutillo Levee System from
Vado Bridge to Borderland Bridge. The total contract award was $18,795,000. This contract
had three modifications, which increased the total contract value to $19,058,377.13. Milestone
invoiced and was paid $3,467,655.26 for work performed through September 30, 2010.

       Milestone generally complied with relevant Federal laws and regulations and worked to
understand and comply with contract requirements. However, we did find areas for
improvement. Specfically, Milestone did not comply with the E-Verify requirement in its
contract, did not obtain all required certifications from its subcontractor, and did not provide
accurate calculations of jobs created and retained or subcontractor award values as required for
Recovery Act reporting. We recommended that the IBWC contracting officer require Milestone
to comply with Recovery Act requirements.

       In its response to the draft report (see Appendix B), IBWC concurred with the report’s
two recommendations, which we consider resolved, pending further action.

                                        Background
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
                                                1

                                       UNCLASSIFIED
                                       UNCLASSIFIED


numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.
        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
System Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood
control systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary
phases: the Preconstruction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

       Milestone was awarded two Recovery Act-funded contracts. Contract No. IBM10C0005
was awarded on December 29, 2009, to furnish all labor, materials, equipment, and incidentals
necessary to complete construction of the Upper Rio Grande Flood Control Project –
Rehabilitation Improvements for the Rio Grande Canalization Protective Levee System, Hatch
Levee System, from Hatch Siphon to Bignell Arroyo. The total contract award was
$5,499,625.75. This contract had three modifications, which brought the total contract value to
$5,642,817.26. Milestone invoiced and was paid $2,326,521.20 for work performed through
September 30, 2010. The Notice to Proceed was issued on February 3, 2010, with a performance
period of 473 calendar days.

       Contract No. IBM10C0006 was awarded on December 30, 2009, to furnish all labor,
materials, equipment, and incidentals necessary to complete construction of the Upper Rio
Grande Flood Control Project – Rehabilitation Improvements for Canutillo Levee System from
Vado Bridge to Borderland Bridge. The total contract award was $18,795,000. This contract
had three modifications, which brought the total contract value to $19,058,377.13. Milestone
invoiced and was paid $3,467,655.26 for work performed through September 30, 2010. The
Notice to Proceed was issued on February 3, 2010, with a performance period of 456 calendar
days.
                                           Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that are accurate and complete.

                                       Results of Audit
        Milestone had controls in place to subcontract and pay subcontractors in a timely manner.
No exceptions were found when we tested for compliance with the Davis-Bacon Act, the
Copeland Act, and the Buy American Act. Additionally, Milestone and its subcontractor had
established programs to meet business ethics, equal opportunity, and affirmative action program
requirements. However, Milestone did not comply with the E-Verify requirement in its contract,
did not obtain all required certifications from its subcontractor and did not provide accurate
                                                   2

                                       UNCLASSIFIED
                                            UNCLASSIFIED


calculations of jobs created and retained or subcontractor award values as required for Recovery
Act reporting.

Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions

       The contractor Milestone did not comply with all terms and conditions of its Recovery
Act construction contract. Specifically, Milestone did not enroll as a Federal contractor in E-
Verify at the time of contract award, as required by the Federal Acquisition Regulation (FAR).1
Specifically, the FAR requires Federal contractors to enroll “as a Federal Contractor in the E-
Verify program within 30 calendar days” of contract award.

       E-Verify is an Internet-based free program run by the U.S. Government that compares
information about an employee’s employment eligibility from Form I-9, Employment Eligibility
Verification, with data from U.S. Government records. If the information matches, that
employee is eligible to work in the United States. If there is a mismatch, E-Verify alerts the
employer, and the employee is allowed to work while he or she resolves the problem within 8
days. The program is operated by the Department of Homeland Security in partnership with the
Social Security Administration.

       Milestone did not enroll in E-Verify. Rather, it used the E-Verify account of its
subcontractor, Don Kelly Construction, to verify the employment eligibility of Milestone
employees. After we notified Milestone of its noncompliance, it enrolled in E-Verify
immediately. Therefore, we are not making a recommendation on this issue.

Finding B. Required Subcontractor Certifications Were Not Obtained
        The contractor Milestone did not obtain certification from its subcontractor that at the
time of award confirmed that “the subcontractor, or its principals, is or is not debarred,
suspended, or proposed for debarment by the Federal Government” in accordance with the
FAR.2 Milestone personnel stated that they were unaware of the requirement.

        The failure to obtain the required certifications could result in subcontracts being
awarded to companies that have been debarred, suspended, or proposed for debarment. We were
able to verify that the subcontractor was not included in the Excluded Parties List System, which
is an electronic Web-based system that identifies those parties excluded from receiving Federal
contracts.

        Recommendation 1. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0005 and
        IBM10C0006 ensure that the contractor Milestone Excavation, Inc., obtains certifications
        from its subcontractor and any future subcontractors performing on these contracts

1
 FAR 52.222-54(b)(1)(i), “Employment Eligibility Verification.” (Jan. 2009) 

2
 FAR 52.209-6(b), “Protecting the Government’s Interest When Subcontracting With Contractors Debarred, 

Suspended, or Proposed for Debarment.” (Sept. 2006)

                                                      3

                                            UNCLASSIFIED
                                             UNCLASSIFIED


          confirming that they or their principals are not debarred, suspended, or proposed for
          debarment.

          IBWC Response: IBWC concurred with the recommendation, stating that it will require
          Milestone to certify that its subcontractor is not debarred, suspended, or proposed for
          debarment and that it will require Milestone to provide these certifications for any future
          subcontractors.

          OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
          resolved. The recommendation can be closed pending OIG’s review and acceptance of
          documentation showing that IBWC obtained the certification from Milestone.

Finding C. Recovery Act Reporting Was Inaccurate and Incomplete

        The contractor Milestone incorrectly calculated and reported the number of jobs created
and retained for three of the four reporting periods tested. Specifically, it reported each
employee working on the project during the period as a full-time-equivalent (FTE) employee
instead of correctly reporting employees as being in part-time or full-time status. The FAR3
explains how to calculate this information. Milestone’s reporting figures were, however,
incorrect because its officials stated that they did not understand that aspect of the regulations.
For each contract, the effect of the incorrect calculation led to an overstatement of between 2.8
and 28.9 FTE jobs reported for a contract in each reporting period.

         Also, Milestone did not submit correct and complete reports for its subcontractor onto the
Web site FederalReporting.gov, as required by the FAR,4 for its Recovery Act construction
contract. Contractors are required to report specific information for “any first-tier subcontract
funded in whole or in part under the Recovery Act, that is over $25,000.” This information
includes the subcontract award amount. Milestone reported incorrect subcontract award amounts
in all three periods for which subcontractor information was reported for both Contract
Nos. IBM10C0005 and IBM10C0006. Milestone personnel could not explain the discrepancies
between the actual subcontract award amounts and the amounts reported as awarded.

      Without complete and accurate reporting, all contract information is not available to the
Government and to the public, thereby defeating one goal of the Recovery Act: transparency.

          Recommendation 2. We recommend that the International Boundary and Water
          Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0005 and
          IBM10C0006 require the contractor Milestone Excavation, Inc., to ensure that its
          personnel are aware of FederalReporting.gov reporting requirements under its American
          Recovery and Reinvestment Act construction contracts and prepare and submit required
          reports that are complete and accurate.



3
    FAR 52.204-11(a), “American Recovery and Reinvestment Act, Reporting Requirements.” (March 2009)
4
    FAR 52.204-11(d)(10)(iii).
                                                       4

                                             UNCLASSIFIED
                                UNCLASSIFIED


IBWC Response: IBWC concurred with the recommendation, agreeing that “online
training may be underutilized by the prime and subcontractors alike.” IBWC further
stated that it will require Recovery Act recipients to certify that their Recovery Act
reporting specialists have taken seven “webinars [Web-based seminars] . . . within 60
days” of its response to the audit.

OIG Analysis: Based on the response, OIG considers the recommendation resolved.
The recommendation can be closed pending OIG’s review and acceptance of
documentation showing that the Recovery Act reporting specialists have taken the
webinars as specified.




                                        5

                                UNCLASSIFIED
                                      UNCLASSIFIED



                                List of Recommendations 


Recommendation 1. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0005 and IBM10C0006 ensure that
the contractor Milestone Excavation, Inc., obtains certifications from its subcontractor and any
future subcontractors performing on these contracts confirming that they or their principals are
not debarred, suspended, or proposed for debarment.

Recommendation 2. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0005 and IBM10C0006 require the
contractor Milestone Excavation, Inc., to ensure that its personnel are aware of
FederalReporting.gov reporting requirements under its American Recovery and Reinvestment
Act construction contracts and prepare and submit required reports that are complete and
accurate.




                                               6

                                      UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                 Appendix A

                                       Scope and Methodology
         The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this appendix), to conduct performance audits of
contractors that received American Recovery and Reinvestment Act (Recovery Act) funds from
the International Boundary and Water Commission (IBWC). One contractor selected for review
was Milestone Excavation, Inc., in Las Cruces, New Mexico. The audit included Recovery Act
funds expended through September 30, 2010, with fieldwork conducted in December 2010.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objective.

        To meet our audit objective, we used the following methodology:

        	 Reviewed documentation available on the Internet for Milestone and its subcontractor
           to evaluate their eligibility to perform on Government contracts and validate the
           entity status of the companies.

        	 Selected and tested a sample of Recovery Act reports on the Web site
           FederalReporting.gov to determine whether information reported was accurate and
           supported.

        	 Determined whether Milestone had processes established and functioning to ensure
           compliance with Buy American Act requirements.

        	 Selected and tested a sample of Milestone- and subcontractor-certified payrolls to
           verify compliance with Davis-Bacon Act1 and Copeland Act2 requirements and to
           verify that processes were in place to validate employment eligibility of those
           individuals performing on the contract.

        	 Reviewed and evaluated subcontracts executed by Milestone to ensure inclusion of
           proper clauses, receipt of debarment certifications, notification made to IBWC of
           active subcontracts, and timely payments.




1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour
Division of the U.S. Department of Labor, on Federally funded or assisted construction projects.
2
  The Copeland “Anti-Kickback” Act prohibits Federal contractors or subcontractors engaged in building
construction or repair from inducing an employee to give up compensation.

                                                       7
                                                         
                                             UNCLASSIFIED
                                       UNCLASSIFIED



       	 Evaluated whether Milestone and its subcontractor had proper programs in place to
          ensure compliance with code of business ethics, equal opportunity, and affirmative
          action requirements.

       We discussed tentative results of this audit with Milestone officials during fieldwork and
with IBWC officials on January 12, 2011.

Review of Internal Controls

        We reviewed the contractor Milestone’s controls to ensure its own and subcontractor
compliance with contractual and regulatory requirements. We determined that there were areas
in which controls were lacking to ensure compliance with contractual and regulatory
requirements. Milestone did not have a process in place to ensure that required subcontractor
debarment certifications were received at the commencement of the subcontract. Milestone also
did not have appropriate controls established to submit accurate Recovery Act reports.

       Implementing recommendations contained in the report will improve controls over
ensuring compliance with required laws and regulations and accurately reporting Recovery Act
spending to the public.
 
Use of Computer-Processed Data

        We used payroll files, job cost data, and other financial reports from the contractor
Milestone’s systems to test the accuracy of the information reported on FederalReporting.gov.
We also validated expenditures listed in IBWC’s budgetary and billing systems to ensure
accuracy of reporting on FederalReporting.gov. We found no unexplained discrepancies in the
expenditure data reported. Although we found inaccuracies in the data reported on
FederalReporting.gov, we determined that these inaccuracies resulted from Milestone’s
misunderstanding of reporting requirements and were not caused by automated data system
issues.
 




                                                8
                                                  
                                       UNCLASSIFIED
                                                     UNCLASSIFIED



                                                                                                            Appendix B


                                 INTERNATIONAL BOUNDARY AND IVA'I FRC"O/lIMISSION
                                           U!\ITEDSTA1L'> A\!O MFXICO

                                                    June 8, 2011




  '''''' ""." .. . .
. . ~tl. ' " , , " ' , _ ... .




       United States Department of Stale and the Broadcasting Board of Governors
       Office of Inspector General
       Attn: Evelyn R. Klemstine, Assistant Inspector General for Audits
       2201 C, Street, NW .
       washington, D.C. 20520-0308


       Subject OIG Audit of International Boundary and Water Commission Construction
       Contract with Milestone Excavation, loc.

       Dear Ms. Klemstine:

       We are pleased to provide you the attached responses to the findings and
       recommendations shown in the draft audit report entitled Audit of International Boundary
       and Wate!" Commission Construction Contract with Milestone Excavation, Inc., using
       Funds provided by the American Recovery and Reinvestment Act Draft Report dated
       May31 , 20 11.

       We note that improvements have already been made in the USIBWC Acquisition
       Division in response to the recommendations provided in the audit report, and specifIC
       responses to each find ing and recommendation are provided.




                                             ~dJ~",~i~"a~.~p~.E~.-­
                                                Commissioner

       Attachment as Stated


     (b) (6)
               The Com mons, Buil<ling L, Su,t.' 100 . 41 7 1 N. Mesa Street . El Paso, Te~.ls 79902-1441
                          (915) 8:'12-4100 . Fa:>.: (qI5) 11.12-4190 · hltp:J Jwww,ibwc.gov




                                                                  9

                                                                    
                                                     UNCLASSIFIED
                                         UNCLASSIFIED





Thank you for the copy of your report dated May 2011 . we greatly appreciate the
opportunity to respond to the report.

 The USIBWC generally agrees with all of the OIG recommendations, and each
 recommendation and suggestion that was noted in the report is addressed below:

 OIG recommendations and USIBWC response:

    1. Recommendation 1. We recommend that the USIBWC contracting officer for
       IBWC Contract no. IBM1 0C0005 ' and IBM10COO06 ensure thai the contractor
       Milestone Excavation . Inc .. obtains certifications from its subcontractors and any
       futu re subcontractors performing on these contracts confirming that they or their
       principals are not debarred. suspended. or proposed for debarment.

          Response: This office will require thi s contractor to certify its subcontractors are
          not debarred , suspended , or proposed for debarment and that it will provide such
          certifICation for any future subcontractors.

    2. Recommendation 2: We recommend that the USI8WC contracting officer for
       IBM1OCOO05 and IBM1 OC0OO6 require the prime contractor to ensure that its
       personnel are aware of FederalReporting.gov reporting requirements under its
       ARRA construction contract and submit required reports that are comp~te and
       accurate.

          Response: The FederalReporting.gov website provides online training to
          contractors which we agree may be undenrtilized by the prime and
          subcontractors alike. This office will requi re ARRA reCipients certify that their
          ARRA reporting specialists have taken the seven (7) webinars this training within
          60 days of this response to audit.

 Thank you again for the opportunity to respond to this draft report and please advise us
 of any follow-up questions, comments, or concerns about this response letter.
(b) (6)




                                                 ,




                                                     10 

                                                       
                                         UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

